Office of
INSPECTOR GENERAL




 Review of the Role of the
 Office of the General Counsel
 in Appeals of Cornmission Decisions
 in Public Investigations


 Report No. IG-05-94




                                    September 1994
                                  -----_._--_  .._._----
                                        Date !ssu;,x:
          INSPECTOR GENERAL




          UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHINGTON, D.C. 20436

September 12, 1994




Decisions made by the Commission can be appealed to two Federal Courts and, in
some circumstances, involve actions in District Court.    Decisions involving
Canada can also be appealed to a bi-national panel. The Office of the General
Counsel (OGC) is responsible for defending the Commission's decisions.     The
objective of this review was to determine if the Commission is meeting these
litigation responsibilities in a cost effective manner, that the related
functions and expenses are property allocated within the organization, and to
note other areas for improvement.

This review was conducted by Urbach Kahn & Werlin PC in accordance with the
Government Auditing Standards issued by the Comptroller General of the United
States. The results of their review are presented in the attached report.

The auditors examined the OGC policies and procedures, organization and
management structure, personnel and staffing, future planning, and cost
evaluation as they apply to the appeals process.   They found that the appeals
process was carried out by the OGe in a cost effective manner.    They did not
identify any instances of non-compliance with Federal laws or regulations.
However, certain matters regarding the Commission's internal control structure
were found as follows:

  1)   The Activity Reporting System (ARS) reports contain inaccuracies and do
       not provide a sufficient level of detail for analysis (page 9).

  2)   The Commission's accounting system does not provide data which fully
       indicates the costs incurred to operate OGC (page 11).

We recommend that OGe work with the Office of Administration to obtain a greater
level of activity coding detail with respect to OGC litigation and appeals
matters, reconcile and test ARS reports on a continuous basis, and obtain some
reasonable methodology for allocating j oint overhead costs to determine the total
costs related to operating the OGC.
                                                        r
The General Counsel generally agreed with the findings but also added that   the
last recommendation applies to the Commission as a whole, not just within    the
OGC. A summary of her comments is presented after each finding on pages 10   and
12.   The General Counsel's comments are presented in their entirety as       an
appendix to the report.




                                              f~~:r
                                               Inspector General
        UNITED STATES INTERNATIONAL
             TRADE COMMISSION

    REVIEW OF THE ROLE OF THE OFFICE OF
    THE GENERAL COUNSEL IN APPEALS OF
COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                  MAY 1994




UK Urbach Kahn & Wedin PC
&W CERTIFIED PUBLIC ACCOUNTANTS
             UNITED STATES INTERNATIONAL TRADE COMMISSION

       REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
     IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                                  CONTENTS




INDEPENDENT ACCOUNTANT'S AGREED-UPON PROCEDURES REPORT                      1


SECTION I:     BACKGROUND                                                  2-3


SECTION II:    OBJECTIVES, SCOPE AND METHODOLOGY                           4-5


SECTION III:   RESULTS OF PROCEDURES                                       6-8


SECTION IV:    FINDINGS AND RECOMMENDATIONS                               9-12




 Appendix --        Memorandum from the General Counsel, dated August 18, 1994,
                    on Draft Report
    INDEPENDENTACCOUNTANT~
AGREED-UPON PROCEDURES REPORT
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS

                            INDEPENDENT ACCOUNTANT'S
                          AGREED-UPON PROCEDURES REPORT




     UNITED STATES INTERNATIONAL TRADE COMMISSION
     OFFICE OF INSPECTOR GENERAL


     We have performed certain agreed-upon procedures related to the review of the role of
     the Office of the General Counsel of the United States International Trade Commission
     (USITC) in appeals of Commission decisions in public investigations. The procedures,
     identified in Section " of this report, were agreed to by USITC's Office of Inspector
     General and were performed to assist USITC in reviewing the role of its Office of the
     General Counsel in appeals of Commission decisions in public investigations. This report
     is intended solely for the information of USITC. This restriction is not intended to limit
     the distribution of this report, which is a matter of public record.

     The objectives of this engagement included the performance of agreed-upon procedures
     by Urbach Kahn & Werlin PC (UKW) to determine the cost effectiveness of the role of the
     USITC Office of the General Counsel in appeals of Commission decisions in public
     investigations.

     The results of our procedures are discussed in Section III of this report. Other findings
     and recommendations identified during our evaluation are discussed in Section IV of this
     report.




     Washington, DC
     June 6, 1994




                                                              -1 -
                                     GOVERNMENT AUDIT AND CONSULTING GROUP
                     1200 Seventeenth Street NW, Washington. DC 20036 (202) 296-2020 FAX (202) 223-8488
                                    Worldwide Coverage through Urbach Hacker Young International
   SECTION I

BACKGROUND
            UNITED STATES INTERNATIONAL TRADE COMMISSION

        REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
      IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                                      BACKGROUND


Introduction

The United States International Trade Commission (USITC or ITC) is an independent
agency of the United States Government established by an Act of Congress. USITC
conducts investigations and reports findings related to international trade and economic
policy matters on behalf of both the President and Congress.

USITC is a quasi-adjudicative, independent, and multipartisan agency with broad
investigative powers on matters of trade. The ITC makes determinations of injury and
threat of injury to U.S. industry by imports. ITC activities also include:

     •   determining whether U.S. industries are materially injured by imports that
         benefit from pricing at less than fair value or from subsidization;
     •   directing actions, subject to Presidential disapproval, against unfair trade
         practices such as patent infringement;
     •   making recommendations to the President regarding relief for industries
         seriously injured by increasing imports;
     •   advising the President whether agricultural imports interfere with price-
         support programs of the U.S. Department of Agriculture;
     •   conducting studies on trade and tariff issues and monitoring import levels;
         and
     •   participating in the development of uniform statistical data on imports,
         exports, and domestic production and in the establishment of an
         international harmonized commodity code.

USITC has a full-time permanent staff of approximately 450 individuals, with budget
appropriations for fiscal years 1993 and 1994 of $44,852,000 and $43,500,000,
respectively.

Office of the General Counsel

USITC's Office of the General Counsel (OGC) has a staff of twenty-seven attorneys, nine
paralegals, five secretaries, two law librarians and one library technician. OGC is
responsible for providing legal advice and guidance to the Commission and its staff and,
in addition, provides the necessary support to assure the legal sufficiency of all activities
of the Commission. OGC provides legal advice and support to the Commissioners and the
Commission staff on investigations, prepares briefs and represents the Commission in
court and before binational panels and administrative tribunals, and provides assistance
and advice on general administrative teams assigned to antidumping and countervailing
duty investigations and certain other types of investigations (not under Section 337). In
addition, OGC defends the Commission when its decisions are appealed.




                                            -2-
              UNITED STATES INTERNATIONAL TRADE COMMISSION

           REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
         IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                                     BACKGROUND


Appeals of Commission determinations in investigations under Title VII (Antidumping and
Countervailing Duty) and Section 337 (Violation of Trademarks, Copyrights, Patents and
other unfair acts) comprise the majority of the litigation handled by OGC. These appeals
can be brought to either of two specific federal courts. Disputes involving Canada or
Mexico can also be brought before binational panels. The Commission is also subject to
suit in federal district court in actions other than appeals of its determinations in
investigations.

Approximately 50 percent of all Commission determinations under Title VII and Section
337 in FYs 1990, 1991 and 1992 were appealed. At the end of these FYs, the following
numbers of cases were pending:


          At the end of FY                Title VII                 Section 337

               1991                          34                          8

               1992                          24                          3

               1993                          47                          3



For FY 1991, expenditures for litigation expenses were $ 433,617. For FY 1992, the
activity reporting system was changed to combine litigation expenses with the expenses
for rulemaking. The combined expenses for litigation and rulemaking in FY 1992 were
$ 546,322.

A recent staff reorganization within the OGC resulted in the creation of three new
positions with only one addition to personnel.

     •     The Assistant General Counsel for Litigation was namedDeputy General Counsel
           in order to assist the General Counsel in managing the OGC. The Deputy
           General Counsel continues to have the duties for supervision of all litigation
           matters within OGC.

     •     The former Supervisory Paralegal was named the Coordinator for Legal Support
           Services. One of the other paralegals on the OGC staff has assumed the
           position of Supervisory Paralegal.

     •     The position of Assistant General Counsel for Administration was created to
           consolidate the management of the administrative duties within OGC. The new
           position was filled subsequent to the date of this report.



                                           -3 -
                        SECTION II

OBJECTIVES, SCOPE AND METHODOLOGY
             UNITED STATES INTERNATIONAL TRADE COMMISSION

        REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
      IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                      OBJECTIVES, SCOPE AND METHODOLOGY


Objectives

Urbach Kahn & Werlin PC (UKW) was engaged to perform agreed-upon procedures related
to the review of the role of the Office of the General Counsel in appeals of Commission
decisions in public investigations. The overall objective of this engagement was to
determine if the Commission is meeting its litigation responsibilities relating to the defense
of certain appeals in a cost effective manner, that the related functions and expenses are
properly allocated within the organization, and to note other areas for improvement.

Scope

Our review encompassed an examination of management and process structures and
functions for providing appellate defense services including organization, staffing, planning
and associated costs and expenses, as well as internal controls related to the appellate
defense process.

UKW conducted its review from May 23, 1994 to June 3, 1994 at the offices of USITC
in Washington, DC. UKW's engagement staff met with numerous USITC employees
within the Office of the General Counsel involved in the appellate process, including
administrative and support staff.

Methodology

The general procedures followed by UKW were as follows:

•   Obtain, review and analyze policies and procedures to understand the appeals process
    including:

         •   19 U.S.C. 1337 (Section 337 of the Tariff Act of 1930)

         •   19 U.S.C. 1671 et seq. (Title VII of the Tariff Act of 1930)

•   Interview key personnel and discuss the method by which the appeals process
    operates within the structure of the Office of the General Counsel.

•   Trace and flowchart how court proceedings are received, compiled, reviewed and filed.

•   Document the method by which the decision making process operates in relation to
    court proceedings.

•   Review the Office of the General Counsel's Mission and Function Statement, USITC
    Directive Number 1004, dated February 1,1982.


                                            -4 -
              UNITED STATES INTERNATIONAL TRADE COMMISSION

           REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
         IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                        OBJECTIVES, SCOPE AND METHODOLOGY


•   Analyze previously submitted FMFIA reports to understand relevant internal controls
    in place in the OGC as they relate to the appellate process.

•   Prepare and analyze an organization chart of aGC following the recent reorganization
    and assess if this structure properly reflects the delegation of assignments.

•   Assess the nature of the work within aGC and analyze how assignments are scheduled
    and assigned to staff.

•   Review the method by which technology, including computer data systems, are utilized
    ev oec.
•   Review the aGC's timekeeping system and determine the hours expended in litigation
    matters (as a percentage of total hours within aGC).

•   Interview attorneys and paralegals within OGC and discuss the following:

    ./   primary responsibilities
    ./   assignment of duties
    ./   supervision
    ./   scheduling
    ./   use of technology.




                                          -5 -
            SECTION III

RESUL TS OF PROCEDURES
            UNITED STATES INTERNATIONAL TRADE COMMISSION

          REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
        IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                               RESULTS OF PROCEDURES


Background

The Office of the General Counsel's (OGC's) primary role is to act as USITC's chief law
officer and advisor. . Its mission, as documented in USITC Directive 1004, dated
February 1, 1982, is

    to provide, in a timely manner, legal advice and guidance to the Commission
    and its staff ... It also provides the necessary support to assure the legal
    sufficiency of all activities of the Commission.

The Directive describes the primary functions of the OGC as follows:

     •    Interprets all statutes, Executive orders, Presidential proclamations, court
          decisions, and regulations applicable to the U. S. International Trade
          Commission and advises the Commission regarding its authority and
          responsibilities thereunder.

     •    Interprets other general or specific statutes and Executive orders which bear
          upon contemplated substantive or administrative actions of the Commission
          and advises as to the legal implications of the proposed actions.

     •    As necessary, drafts and revises the Commission's Rules of Practice and
          Procedure, including rules governing investigations and hearings.

    •     Advises the Commission as to the legal sufficiency of applications,
          petitions, complaints, and other requests submitted to the Commission
          under applicable statutes and regulations.

    •     When directed by the Commission, represents the Commission in Federal
          Courts and in proceedings before other administrative agencies.

    •     Reviews and is responsible for the legal sufficiency of contemplated
          investigative reports. Drafts legal instruments necessary to effect
          Commission decisions when appropriate.

    •     Performs legal liaison between the Commission, the Department of Justice,
          and other Federal agencies on litigation or other legal matters affecting the
          Commission's actions or responsibilities, as directed by the Commission.

    •     Maintains, or oversees the maintenance of, a law library which includes
          indexes of legal opinions, decisions of the Commission, court decisions
          affecting Commission procedure and jurisdiction, and a research collection
          of legal materials relating to international trade of the United States.

                                            -6-
           UNITED STATES INTERNATIONAL TRADE COMMISSION

       REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
     IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                              RESULTS OF PROCEDURES


aGC currently consists of the General Counsel, the Deputy General Counsel, three
Assistant General Counsels, and twenty-two attorney-advisors. The support staff
consists of the Coordinator for Legal Support Services, the supervisory paralegal, seven
paralegals and five secretaries. The Law Library on the sixth floor is staffed by three full-
time employees. Substantially all OGC staff are available to assist on appellate matters
as required.

The General Counsel is responsible for the overall management of operations within the
OGC and ensuring that aGC's mission is performed properly and efficiently. The General
Counsel is also the Cost Center Manager for aGC's budget. A Cost Center Manager, as
defined in USITC Directive 2103, dated January 16, 1990, is:

         ... delegated direct responsibility to authorize the use of agency
         resources by the Chairman, and has been allocated funds for that
         purpose along with the responsibility to remain within those funds in
         accordance with expenditure plan allocation instructions.

Systems understanding and documentation

Through discussions with various USITC personnel and review of applicable USITC
procedures and guidelines, we documented and evaluated the significant internal control
systems and procedures related to the appeals and litigation process within the OGC. Our
review did not identify any instances of non-compliance with Federal laws and
regulations. We did, however, identify certain matters regarding the internal control
structure which we discuss further in Section IV (Findings and Recommendations) of this
report.

Personnel interviews

We interviewed the following USITC employees with significant involvement in the
appellate process within aGc:

     •   the General Counsel
     •   the Deputy General Counsel
     •   an Assistant General Counsel
     •   five Attorney-Advisors
     •   the Coordinator for Legal Support Services
     •   the Supervisory Paralegal
     •   four Paralegals

Our interviews focused on the following areas:

     •   Duties and responsibilities

                                            -7 -
           UNITED STATES INTERNATIONAL TRADE COMMISSION

       REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
     IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                             RESULTS OF PROCEDURES


     •   Lines of authority and responsibility
     •   Delegation of work and scheduling
     •   Use of technology
     •   The appeals litigation process within OGC

Results of personnel interviews

The employees indicated that the appeals litigation process within OGC was structured
in such a manner to assign the same attorney to each appeal who handled the original
investigation and had advised the Commission on the writing of the determination under
appeal. The attorneys stressed their utilization of the paralegal staff, and the reliance
they placed on the quality of the work performed by the OGC paralegals.

The attorneys interviewed emphasized the support provided within the OGC by the
General Counsel and the Deputy General Counsel. The commitment to the quality of
work and the strength of defense of Commission determinations was underscored by the
moot courts which are used in preparation for litigation. Every attorney interviewed
mentioned the strength and the professionalism of the paralegal staff.


Conclusion: Overall, based on the results of our evaluation, it appears that the appeals
litigation process is carried out by the OGC in a cost effective manner.




The following section outlines certain findings and recommendations related to the
internal controls as they affect the USITC OGC identified during our study.




                                          -8-
                   SECTION IV

FINDINGS AND RECOMMENDA TIONS
            UNITED STATES INTERNATIONAL TRADE COMMISSION

        REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
      IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                        FINDINGS AND RECOMMENDATIONS


ACTIVITY REPORTING SYSTEM REPORTS CONTAIN INACCURACIES AND DO NOT
PROVIDE A SUFFICIENT LEVEL OF DETAIL FOR ANAL YSIS

Background

The Activity Reporting System (ARS) is used by ITC to allocate employees' time and
associated cost to the various offices within ITC. Further, ARS provides an activity
coding system which allocates time and associated cost by activity as well as by
employee. The Office of Finance and Budget (OFB) has the primary responsibility for
maintaining ARS and uses the output for its budget justification. ARS is limited to payroll
costs and does not include employee benefits such as health insurance and retirement
plans. The primary ARS output consists of an expenditure report, by office, by activity;
and an expenditure report by office, by employee. Such reports provide a current and
year-to-date column for the number of hours allocated as well as the associated labor
cost.

Condition

We noted that the level of detail provided in the activity coding system does not provide
sufficient detail for useful analysis. For example, the activity code 6CA 101 combines all
rulemaking and litigation activity. In addition to combining two types of activities,
litigation is not allocated by the type of litigation.

We also noted ARS reports contained certain inaccuracies, including the following:

•   We noted differences in both the fiscal years 92 and 93 year-to-date hours and
    associated cost amounts between 1) the expenditure report by activity and 2) the
    expenditure report by employee. Since the two reports consist of the same figures,
    the total amounts should be equal.

•   One entry indicated a higher current cost than a year-to-date cost. Since the
    year-to-date cost is the sum of the current cost plus the previous year-to-date cost,
    the current cost should be equal to or less than the year-to-date cost.

•   One entry indicated the same number of current and year-to-date hours. However,
    the costs for the current and year-to-date periods were slightly different.

In addition, hours worked in excess of eight hours per day, except for paid overtime and
compensatory time, are not reported in the current system.




                                           -9 -
            UNITED STATES INTERNATIONAL TRADE COMMISSION

        REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
      IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                         FINDINGS AND RECOMMENDATIONS


Criteria

OMS Circular No. A-127, Section 1506 6.a., states, " ...financial management information
shall be reasonably complete and accurate ... "

GAO's Standards For Internal Controls In the Federal Government states, "Internal control
objectives are to be identified or developed for each agency activity and are to be logical,
applicable, and reasonably complete. This standard requires that objectives be tailored
to an agency's operations ... "

Cause

OGC indicated that USITC Administrative Announcement 94-04 dictates the activity
coding level of detail. Such guidance does not require that detail activity coding be
provided with respect to litigation.

OFB recognized that the Paradox database system used to maintain ARS has been found
to have certain problems in the programming area. Upon request, OFB corrected the
year-to-date fiscal year 94, however, was not able to retrieve prior fiscal years 92 and 93.
OFB maintains that ARS is currently functioning properly.

Effect

The OGC's broad activity coding precludes any form of labor cost analysis with respect
to litigation and appeals matters.

Use of the ARS system, in its current format, creates the potential for inappropriate
management and budgetary decision making. Therefore, OGC does not use ARS for
budgeting or any other management purpose.

Recommendations

•   We recommend that OGC work with OA to issue a revisron replacing USITC
    Administrative Announcement 94-04 to provide a greater level of activity coding
    detail with respect to OGC litigation and appeals matters.

•   We recommend that OGe coordinate with OFB and OIS to reconcile and test ARS
    reports on a continuous basis.

Commission's response

The General Counsel generally agreed with this finding.


                                           - 10 -
            UNITED STATES INTERNATIONAL TRADE COMMISSION

        REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
      IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                       FINDINGS AND RECOMMENDATIONS


USITC'S ACCOUNTING SYSTEM DOES NOT PROVIDE DATA WHICH FULL Y INDICATES
THE COSTS INCURRED TO OPERATE OGC

Condition

USITC's accounting system classifies all non-payroll expenditures by the type of cost.
It does not, however, suballocate such costs to the various offices within USITC. For
example, all computer related charges such as hardware and software, Westlaw services,
and Lexus/Nexus services would be grouped as an organization-wide type expenditure
and, as such, would not indicate how much of those costs were attributable to an
individual office such as OGC.

Criteria

GAO's Standards For Internal Controls In The Federal Government states, n ••• assigning
and maintaining accountability for resources involves directing and communicating
responsibility to specific individuals with an agency for the custody and use of
resources ... "

OMS Circular No. A-127, 6.c., states, " ... Data required for budget and management
decisionmaking on unit costs and performance shall be included in the system ... I'

Cause

USITC's current budgetary control policy allocates funds for certain overhead costs
incurred throughout the organization to certain administrative offices, such as OMS and
OIS. This policy does not provide for the suballocation of these funds to the users who
actually incur the costs. Since the accounting system is geared toward the budgetary
process, suballocation of costs does not occur.

Effect

It is not possible to determine certain non-payroll costs incurred to operate OGC. As
such, and as has been discussed in previous reports, a detailed financial analysis is
precluded.

Recommendation

•   In order to improve information available to OGC management, we recommend that
    OGC work with OFB to obtain some reasonable methodology for allocating joint
    overhead costs to determine the total costs related to operating the OGC.




                                        - 11 -
          UNITED STATES INTERNATIONAL TRADE COMMISSION

       REVIEW OF THE ROLE OF THE OFFICE OF THE GENERAL COUNSEL
     IN APPEALS OF COMMISSION DECISIONS IN PUBLIC INVESTIGATIONS

                        FINDINGS AND RECOMMENDATIONS


Commission's response

The General Counsel generally agreed with this finding, but also added that this
recommendation applies to the Commission as a whole, not just within the OGe. UKW
agreed and noted that this has been discussed with USITC management as a result of
prior reviews.




                                      - 12 -
                                                                     Appendix

                                          August 18, 1994

MEMORANDUM                                 GC-R-442

TO:          THE INSPECTOR GENERAL

FROM:        The General Counsel   ~
SUBJECT:     Draft Report on OGC Role in Appeal of Commission Decisions

      Thank you for this opportunity to comment on the findings and
recommendations of the recent review of this office's role in the appeals of"
Commission decisions in public investigations. We are, of course, pleased at
the findings of the audit that our operation is cost effective in this area
and complies with applicable laws and regulations. The office's lawyers and
support staff work hard to provide the Commission the best possible service in
a cost-effective manner.

Comments on Recommendations

      The draft report's recommendations, referenced in the draft cover
memorandum, have to do, as the draft notes, with systems that are not specific
to aGc. Our comments concern whether the recommendations properly reflect the
nature of the problems identified. Although the particular matters came to
the attention of the auditor in the course of an inquiry into an aGC function,
where the problems are not aGG-specific, GGC-specific recommendations may not
be appropriate.

      The first recommendation suggests that the ARS system "does not provide
a sufficient level of detail for useful analysis" and suggests that OGC work
with the Office of Administration to obtain a greater level of activity coding
detail for litigation and appeals matters. We agree that the ARS system
should not group litigation activities with rulemaking. Those two activities
involve quite different kinds of tasks. We will propose that these two
activities be separated in the ARS reporting system. We will also propose
that litigation matters not directly related to defense of Commission
determinations be reported in a separate category from defense of Commission
determinations.

      We are dubious, however, that more detailed reporting of litigation
activities will provide the basis for analysis that is useful to management so
long as the ARS reporting system remains in its current form. That system
requires employees to report no more than 8 hours per day.l This being the
case, the system builds in inaccuracies that are much more substantial than
the discrepancies noted in the report. Such inaccuracies are particularly
egregious for reporting activities like litigation, which frequently require


1 Work beyond eight hours a day is reported as overtime or compensatory time,
when claimed as such. Such reporting, however, is not included in the ARS
system and does not specify the type of activity that led to the overtime or
compensatory time claim. It is also unclear to what extent employees in
various offices claim work in excess of eight hours as compensatory time or
overtime.
                                                                                2

long hours to meet deadlines.

      In shor~, unless the ARS system is itself modified to allow real-time
reporting, it will not provide a basis for useful analysis. Certainly it
cannot be used to help supervisors judge the amount of time that different
kinds of activities involve except in the most gross sense. As in prior
years, in response to the IG's request for audit proposals, we will propose
that refinements of the ARS system to increase its usefulness as a management
tool be the subject of an Inspector General audit.

      You also recommend that OGC work with the Office of Administration to
reconcile and test ARS reports on a continuous basis. I should note that
when, at our closing meeting with the survey team on the draft report, I
suggested that we should look into cross-checking ARS reports on a regular
basis, the auditors expressed skepticism about the usefulness of such checking
for &n office of this size. In addition, the auditor'S report does not reach
conclusions concerning the reason for "inaccuracies" found and allows, at p.
10, for the possibility that some of the discrepancies may b~ the result of
problems with the database system used to maintain ARS, which could not be
checked because OFB was not able to retrieve earlier years in the study. Any
system that is developed for cross-checking ARS reports should impose a burden
proportional to the anticipated management benefit. Keeping in mind the
auditor'S comments, we will consult promptly with OFB concerning developing a
method for regular spotchecking of ARS records for this office. I should also
note that the ARS reporting system has not itself been tested to determine
whether the anomalies here reported are unique to OGC, so that we do not know
whether OGC-specific measures are appropriate.           .

      The last reservation states that OGC should work with the Office of
Administration to develop "some reasonable methodology for allocating joint
overhead costs to determine the total costs related to operating the aGe."
This recommendation is based on an observation of the auditors that is not
specific to OGC, and we assume that the recommendation does not intend that
this project involve only OGC and the Office of Administration. That
observation appears at page 11 of the report: "USITC's current budgetary
control policy allocates funds for certain overhead costs incurred throughout
the organization to certain administrative offices, such as OMS and OIS. This
policy does not provide for the suballocation of these funds to the users who
actually incur the costs."

      The auditor's observation concerning costs not being allocated to
specific operating offices is an agency-wide problem. We assume that an
agency-wide solution is contemplated. Thus, if a method of allocation is
developed for OGC alone and then applied to other offices, managers in the
other offices may have reason to object to the methodology as applied to their
operations. I share the auditor'S apparent view that budgeting may be more
accurate if such costs are allocated to the operating offices. I believe that
this should be a project for the entire senior staff in conjunction with the
Office of Administration -- not a project for aGe and the Office of
Administration alone.
                                                                                3

Summary of Action to be Taken

1. We will promptly after issuance of your final report request that the ARS
reporting categories be changed from "Rulemaking & Litigation" to three
categories: Rulemaking, Defense of Commission Determinations, Other
Litigation.

2. We will promptly after issuance of your final report consult with the
Office of Administration concerning means that could be undertaken on a
regular basis to spotcheck ARS reporting and summaries for this office on a
regular basis and implement the results of this consultation by the beginning
of 1995.

3. We will promptly contact the Office of Administration, the Office of
Finance and Budget, and Office of Information Systems, to determine the nature
of overall management review that would be necessary to allocate overhead
costs by office, preliminary to consultations with senior management as a
whole.

Findings

      The following comments review particular observations made in the draft
report. Except where objections are noted, we have no reason to question any
of the findings in the draft.

p. 3   As of the date of the draft, the position of Assistant General Counsel
       for Administration had indeed not been filled.   The new Assistant
       General Counsel has now been appointed.

p. 7   The report is not quite complete in stating that there are seven
       paralegals. Not counting the Coordinator for Legal Support Services and
       supervisory paralegal, who are separately listed, there are currently
       five paralegals available for litigation work, not seven. One, Andra
       Cunningham, although a paralegal during the auditor's study, had left
       the Commission by the time of the draft report. (We are currently
       considering applications for an upward mobility trainee to fill her
       slot.) One other paralegal, who works part-time, is designated in her
       job description as an ethics specialist, acts as assistant to the
       Commission's Deputy Ethics Officer and is unavailable for litigation
       work.

p. 10 Certain of our comments concerning ARS report "inaccuracies" appear
      above. We disagree that "inaccurate ARS reporting creates the potential
      for inappropriate management and budgetary decision making," if by
      "inaccuracies" what is meant is the kind of discrepancies noted on page
      9. The ARS system is not used for management decision making -- not
      because of any reporting inaccuracies but because the system as it is
      set up does not allow for real-time reporting. "Inaccuracies" in
      reporting in this artificial system therefore do not affect management
      decision making. For this same reason, this office, except to the
      extent required, also does not rely heavily on the ARS reports in
       developing   bud~et   recommendations.
                                                                            4


p. 11 The heading on this page is overbroad. As the text reflects, "it is not
      possible to determine certain non-payroll costs incurred to operate
      OGe." (emphasis supplied.) To accurately reflect the text, the title
      should indicate that the Commission's accounting system does not provide
      data which fully indicates the costs incurred to operate OGC. As the
      text also reflects, the auditor has discussed this fact in past reports,
      and the fact that the auditor cannot therefor~ conduct a detailed
      financial analysis on an office-by-office basis is not unique to OGC.
